AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

 COOPERATIVE AGREEMENT AWARD UNDER THE

  SOLVING COLD CASES WITH DNA PROGRAM

       TO THE KANSAS CITY, MISSOURI

     BOARD OF POLICE COMMISSIONERS


         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


        Audit Report GR-60-14-007

                March 2014

            AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

             COOPERATIVE AGREEMENT AWARD UNDER THE

              SOLVING COLD CASES WITH DNA PROGRAM

                   TO THE KANSAS CITY, MISSOURI

                 BOARD OF POLICE COMMISSIONERS


                                 EXECUTIVE SUMMARY


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Solving Cold Cases with DNA program
cooperative agreement totaling $452,293, awarded by the Office of Justice
Programs (OJP), National Institute of Justice (NIJ) to the Kansas City, Missouri
Board of Police Commissioners (Kansas City), as shown in Exhibit 1.

EXHIBIT 1:	 COOPERATIVE AGREEMENT AWARDED TO THE KANSAS CITY,
            MISSOURI BOARD OF POLICE COMMISSIONERS
                           COOPERATIVE
                            AGREEMENT          AWARD        PROJECT        PROJECT        AWARD
   AWARD NUMBER              PROGRAM            DATE       START DATE     END DATE        AMOUNT
                       Solving Cold Cases
 2011-DN-BX-K526                              09/12/11      10/01/11      06/30/13        $452,293
                       With DNA
                                                                              Total:     $452,293
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)


       The purpose of the Solving Cold Cases with DNA Program is to provide
assistance to states and units of local government to identify, review, and
investigate Uniform Crime Reporting (UCR) Part 1 Violent Crime cold cases that
have the potential to be solved through DNA analysis and to locate and analyze
biological evidence associated with these cases. 1 For the purposes of this program,
the NIJ defines a violent crime cold case as any unsolved UCR Part 1 violent crime
case for which all significant investigative leads have been exhausted.

       The purpose of the audit was to determine whether reimbursements claimed
for costs under the cooperative agreement were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and conditions
of the cooperative agreement, and to determine program performance and
accomplishments. The objective of our audit was to assess risks and review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) expenditures, (4) budget management and control,
(5) financial and progress reports, (6) program performance and accomplishments,
and (7) post end date activity. We determined that monitoring of contractors and
subrecipients, property management, indirect costs, program income, and matching
were not applicable to this award.

       1
          In the Federal Bureau of Investigation’s UCR Program, Part 1 Violent Crime is composed of
four offenses: murder and non-negligent manslaughter, forcible rape, robbery, and aggravated
assault. Violent crimes are defined in the UCR Program as those offenses which involve force or threat
of force.
        We tested compliance with what we consider to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide and the
cooperative agreement award documents.

      We examined Kansas City’s accounting records, financial and progress
reports, and operating policies and procedures and found:

   •	 $440,232 in unallowable costs associated with the review of ineligible cases;

   •	 Kansas City’s Federal Financial Reports were not accurate;

   •	 performance metrics reported to NIJ did not match the supporting 

      documentation and were not accurate; and


   •	 Kansas City did not meet the program goals.

      The report contains two recommendations, which are detailed in the Findings
and Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I. Our Schedule of Dollar-Related Findings
appears in Appendix II.




                                         ii
                                        Table of Contents

INTRODUCTION ..........................................................................................1

  Background................................................................................................ 2

  Our Audit Approach ..................................................................................... 2

FINDINGS AND RECOMMENDATIONS ..........................................................4

  Internal Control Environment ....................................................................... 4

    Single Audit............................................................................................. 4

    Financial Management System................................................................... 4

  Drawdowns ................................................................................................ 5

  Expenditures .............................................................................................. 5

    Personnel and Fringe Benefits.................................................................... 5

    Other Direct Costs.................................................................................... 8

  Budget Management and Control .................................................................. 8

  Reporting................................................................................................... 8

    Financial Reporting................................................................................... 9

    Categorical Assistance Progress Reports ..................................................... 9

  Program Performance and Accomplishments ................................................ 12

  Post End Date Activity ............................................................................... 13

  Conclusion ............................................................................................... 13

  Recommendations..................................................................................... 13

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ..........................15

APPENDIX II: SCHEDULE OF DOLLAR RELATED FINDINGS ....................... 17

APPENDIX III: KANSAS CITY, MISSOURI BOARD OF POLICE

COMMISSIONERS RESPONSE .................................................................... 18

APPENDIX IV: OFFICE OF JUSTICE PROGRAMS RESPONSE ...................... 21

APPENDIX V: OFFICE OF INSPECTOR GENERAL ANALYSIS AND SUMMARY 

OF ACTIONS NECESSARY TO CLOSE THE REPORT...................................... 23

            AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

             COOPERATIVE AGREEMENT AWARD UNDER THE

              SOLVING COLD CASES WITH DNA PROGRAM

                   TO THE KANSAS CITY, MISSOURI

                 BOARD OF POLICE COMMISSIONERS


                                      INTRODUCTION


      The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Solving Cold Cases with DNA program
cooperative agreement totaling $452,293, awarded by the Office of Justice
Programs (OJP), National Institute of Justice (NIJ) to the Kansas City, Missouri
Board of Police Commissioners (Kansas City), as shown in Exhibit 1.

EXHIBIT 1:	 COOPERATIVE AGREEMENT AWARDED TO THE KANSAS CITY,
            MISSOURI BOARD OF POLICE COMMISSIONERS
                           COOPERATIVE
                            AGREEMENT           AWARD       PROJECT         PROJECT        AWARD
   AWARD NUMBER               PROGRAM            DATE      START DATE      END DATE        AMOUNT
                        Solving Cold Cases
 2011-DN-BX-K526                               09/12/11     10/01/11       06/30/13        $452,293
                        With DNA
                                                                              Total:      $452,293
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)


       The purpose of NIJ’s Solving Cold Cases with DNA Program is to provide
assistance to states and units of local government to identify, review, and
investigate Uniform Crime Reporting (UCR) Part 1 violent crime cold cases that
have the potential to be solved through DNA analysis and to locate and analyze
biological evidence associated with these cases. 1 For the purposes of this program,
the NIJ defines a violent crime cold case as any unsolved UCR Part 1 violent crime
case for which all significant investigative leads have been exhausted.

       According to its application, Kansas City intended to use Cooperative
Agreement 2011-DN-BX-K526 to address two components in the investigation of
cold case sexual assaults. First, Kansas City planned to review cold cases with
potential biological evidence that had not been analyzed by the police department’s
crime laboratory. Second, Kansas City planned to investigate cold cases that had a
Combined DNA Index System (CODIS) hit identified or had a full or partial profile
developed for an unknown suspect, but were not fully investigated. 2 The budget


       1
          In the Federal Bureau of Investigation’s UCR Program, Part 1 Violent Crime is composed of
four offenses: murder and non-negligent manslaughter, forcible rape, robbery, and aggravated
assault. Violent crimes are defined in the UCR Program as those offenses which involve force or threat
of force.

       2
          Matches within the CODIS database are identified as “hits.” A “hit” is when one or more
DNA profiles from a crime scene are linked to a convicted offender (offender hit) or to evidence from
another crime scene (forensic hit).


                                                  1

included full-time salaries and fringe benefits for three cold case sex crimes
detectives, overtime for cold case sex crimes and homicide detectives, and travel
for investigations and training.

Background

       OJP’s mission is to increase public safety and improve the fair administration
of justice across America through innovative leadership and programs. OJP seeks
to disseminate state-of-the-art knowledge and practices across America and to
provide grants for the implementation of these crime fighting strategies. NIJ, a
program office of OJP, is the research, development, and evaluation agency of DOJ.
The NIJ’s mission is to provide objective and independent knowledge and tools to
reduce crime and promote justice, particularly at the state and local levels. The
NIJ’s Office of Investigative and Forensic Sciences provides direct support to crime
laboratories and law enforcement agencies to improve the quality and practice of
forensic science. The office oversees a number of programs aimed at expanding
the information that can be extracted from forensic evidence, including DNA.

      The Kansas City, Missouri Board of Police Commissioners has the
responsibility of providing police service to the citizens of Kansas City, Missouri as
mandated by Missouri State Statute. The Kansas City Police Department is unique,
as most other departments are governed by city councils. While the police
department is not governed by the City, the City does provide the department with
funding, meaning the City controls the police department through its budget.
According to Kansas City’s website, the Board of Police Commissioners currently
governs a department with more than 1,400 officer and 600 civilian employees.
The Kansas City Police Department is made up of five departments, including the
Investigations Bureau, which includes the cold case squads.

Our Audit Approach

        We tested compliance with what we consider to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide and cooperative
agreement award documents. We tested Kansas City’s:

   •	 internal control environment to determine whether the internal controls in
      place for the processing and payment of funds were adequate to safeguard
      cooperative agreement funds and ensure compliance with the terms and
      conditions of the cooperative agreement;

   •	 drawdowns to determine whether cooperative agreement drawdowns were
      adequately supported and if Kansas City was managing cooperative
      agreement receipts in accordance with federal requirements;




                                          2

   •	 expenditures to determine whether the costs charged to the cooperative
      agreement were accurate and allowable;

   •	 budget management and control to determine Kansas City’s compliance
      with the costs approved in the cooperative agreement budget;

   •	 reporting to determine if the required financial and programmatic reports
      were submitted on time and accurately reflected award activity;

   •	 performance and accomplishments to determine whether Kansas City
      met the cooperative agreement objectives; and

   •	 post end date activity to determine whether Kansas City complied with
      post end date requirements.

      The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I. Our Schedule of Dollar-Related Findings
appears in Appendix II.




                                        3

                  FINDINGS AND RECOMMENDATIONS

      We found that Kansas City did not comply with essential award
      conditions in the areas of expenditures, reporting, and performance.
      Specifically, 95 percent of the cases reviewed by Kansas City using
      award-funded positions were not eligible under the program; as a
      result, the award expenditures related to these positions totaling
      $440,232 are unallowable. We also found that Kanas City’s program
      performance data reported to the NIJ in the semi-annual progress
      reports did not match the supporting documentation and was not
      accurate. In addition, since 95 percent of the cases reviewed under
      the program were ineligible, Kansas City did not meet the program
      goals. Based on our audit results, we make one recommendation to
      address dollar-related findings and one recommendation to improve
      the management of DOJ cooperative agreements.

Internal Control Environment

       We reviewed Kansas City’s Single Audit Report, other prior audits, and the
financial management system to assess the organization’s risk of non-compliance
with laws, regulations, guidelines, and terms and conditions of the cooperative
agreement. We also interviewed management and key personnel, and inspected
documents and records in order to further assess risk.

Single Audit

       The Office of Management and Budget (OMB) Circular A-133 requires that
non-federal entities that expend $500,000 or more per year in federal awards have
a single audit performed annually. The most recent Single Audit for Kansas City
was for the year ended April 30, 2013. We reviewed this audit report and did not
identify any findings related to the police department or Cooperative Agreement
2011-DN-BX-K526 that were significant within the context of our audit.

Financial Management System

       We reviewed Kansas City’s financial management system, interviewed
Kansas City officials, and inspected cooperative agreement documents. Internal
control procedures for payroll included tracking employee activity by a designated
timekeeper, most often a supervisor, using electronic timesheets and a
supplemental overtime voucher. Overtime was authorized by an immediate
supervisor, logged by the timekeeper, compiled by the payroll department, and
approved by both the assistant and division commander. Internal control
procedures for travel reimbursements included the traveler obtaining prior approval
from the designated chain of command and providing a travel expense summary
with receipts, all of which was reviewed and approved by the fiscal division. We did
not identify any control weaknesses within the context of our audit.




                                         4

Drawdowns

       Kansas City officials stated that drawdowns were requested on a
reimbursement basis. According to the OJP Financial Guide, the grant recipient
should time drawdown requests to ensure that federal cash on hand is the
minimum needed for disbursements to be made immediately or within 10 days. We
analyzed the cooperative agreement to determine if the total expenditures recorded
in Kansas City’s accounting records were equal to, or in excess of, the cumulative
drawdowns. We determined that Kansas City complied with the requirement, as
total expenditures were equal to cumulative drawdowns as of July 12, 2013.
Kansas City had drawn down a total of $452,293, the entire award, as of that date.

Expenditures

       According to Kansas City’s accounting records as of June 30, 2013, the
project end date, cooperative agreement expenditures totaled $452,293. We
selected a judgmental sample of 20 transactions totaling $37,968 for review, in
order to determine if cooperative agreement expenditures were allowable,
reasonable, and in compliance with the terms and conditions of the award.

Personnel and Fringe Benefits

        The sample included payroll transactions totaling $23,261 from two
non-consecutive pay periods. For the two selected pay periods, we determined that
salaries, fringe benefits, and overtime charged to the cooperative agreement were
computed correctly, properly authorized, and accurately recorded. However, we
found that the activities performed by the award-funded employees were not
eligible under the program. As a result, we found that all personnel and fringe
benefits costs charged to the cooperative agreement were unallowable.

        The FY 2011 Solving Cold Cases with DNA program solicitation outlines
allowable and unallowable uses of funds. Permissible uses of the funds included
activities directly related to the three program goals, also known as funding
purposes: cold case review, location of evidence, and DNA analysis of biological
evidence. Funds could also be used for certain investigative activities provided they
directly related to the funding purposes. Costs for general cold case investigations
– those that do not have the potential to be solved through DNA analysis – are not
allowed. Funds are also not to be used for general casework backlog reduction.

       According to NIJ officials, the general concept behind the program was to
take advantage of the advent of DNA technology and subsequent advances to solve
cold cases that occurred at a time when the technology was not available or
advanced enough to process the biological evidence. This statement is in line with
the 2011 program solicitation, which stated that advances in DNA technology have
increased the successful analysis of aged, degraded, limited, or otherwise
compromised biological evidence. Biological samples once thought to be unsuitable
for testing or that generated inconclusive results may now be analyzed. These
statements point to the fact that the funds are meant for cases where limits in DNA


                                         5

technology at the time the crime was committed prevented the investigation from
moving forward.

        NIJ officials also stated that the program was not meant to cover cases with
biological evidence that was obtained during a time when the DNA technology was
available but a decision was made by the agency to inactivate the case without
processing the biological evidence. This corresponds to NIJ’s definition of a cold
case; that is any unsolved case for which all significant investigative leads have
been exhausted. If suitable DNA technology was available at the time the crime
was committed and biological evidence was collected, the evidence represents a
significant investigative lead. If the biological evidence was not analyzed, all
investigative leads have not been exhausted and the case does not qualify under
this program. This stipulation underscores the fact that the review and
investigation of certain cases cannot be funded using program funds.

       We found that Kansas City was using award funds to review relatively recent
sex crime cases, for which biological evidence had been collected during a time
when DNA technology was readily available, including crimes committed between
2006 through 2011. Of the 2,510 cases that Kansas City reviewed under the
program, 2,377, or 95 percent, of the cases were from crimes committed between
2006 and 2011. In our opinion, cases from more recent years are not eligible for
inclusion in the program, because DNA technologies were not a limiting factor for
processing biological evidence during the investigation, since they occurred at a
time when the technology was readily available.

       We looked at a sample of seven case files from 2009 and 2010, which were
reviewed by award-funded investigators. The sample revealed that not only were
the crimes committed during a time when DNA technology was readily available,
the cases either did not meet NIJ’s definition of a cold case because all significant
investigative leads had not been exhausted related to the biological evidence or a
DNA profile had already been developed. Specifically, we found that: (1) for four
of the cases, the biological evidence – a rape kit – was collected at the time the
crime was committed and Kansas City chose not to develop DNA profiles related to
the evidence before inactivating the case; as a result, the agency did not fully
pursue all investigative leads related to the biological evidence; and (2) for three
of the cases, the biological evidence had already been processed and uploaded to
CODIS as part of the original investigation, which was prior to the case being
reviewed as part of this award. These cases are problematic because according to
the FY 2011 program solicitation: (1) this funding is to be used to review cases for
which all significant investigative leads have been exhausted, and (2) activities
under this program are only permissible until all samples with potential DNA
evidence have been recovered and analyzed.

      We also reviewed all of Kansas City’s progress reports, because the
accompanying narratives included descriptions of cases cleared as part of the
program. The reports include nine cleared cases from years 2007 through 2011.
Based on the progress report narratives, six of the cases appeared to be instances
where the suspect was known and the victim refused to cooperate or made


                                          6

inconsistent or uncorroborated statements. Again, costs for general cold case
investigations—those that do not have the potential to be solved through DNA
analysis—are not allowed. DNA would not help solve these cases, because the
suspect was already known and the case remained unsolved for reasons unrelated
to DNA testing. Three of the cases appeared to be instances where all investigative
leads were not exhausted prior to the cases’ inclusion in the program, an issue
previously discussed.

       We also noted that according to Kansas City’s award application, it planned
to review 1,448 cold cases for crimes committed between 1972 and 2005 that were
known to have biological evidence. The application briefly mentions that if Kansas
City completed the review of these cases, they might start reviewing the year 2006
and forward. However, our review of Kansas City’s case database revealed that
there were over 1,000 cases from 1972 through 2005 that had yet to be reviewed.
According to the OJP Financial Guide, you must initiate a Grant Adjustment Notice
(GAN) for changes in scope, duration, activities, or other significant areas. These
changes include altering programmatic activities or changing the purpose of the
project. Kansas City did not file a GAN outlining the changes in scope. Therefore,
in addition to reviewing cases that were not eligible under NIJ’s program, Kansas
City’s review of cases from 2006 through 2011 was also inconsistent with the goals
stated in its application. We used the original timeframe established by Kansas City
– 1972 through 2005 – to differentiate cold cases that were eligible to be reviewed
and more recent cases that were not eligible.

        Kansas City also received Solving Cold Cases with DNA program funds in
FYs 2007 and 2009. According to Kansas City’s FY 2011 application, the funds from
the two previous awards were used to form the Sex Crimes Cold Case Squad and to
review cases from a pool of 3,995 sex crimes committed between 1972 and 2005
that were known to have biological evidence. The FY 2011 application proposed
looking at the 1,448 of cases from this pool that still needed to be reviewed.
However, from the beginning of the FY 2011 award, in addition to cases from 1972
through 2005, Kansas City immediately began reviewing cases from 2006 forward.
We asked Kansas City officials why these cases were reviewed, despite the
existence of cases from 1972 to 2005 that had not been reviewed. Kansas City
officials stated that it was determined that cases from 1972 through 1978 were not
a good use of police resources because work was limited by statute of limitations
issues. Kansas City officials also stated that there could have been a number of
issues related to some of the other cases, namely those from the late 1970s and
early 1980s, such as lost case files, human error in entering data into the database,
and the possibility that the case files were with a partnering agency. Therefore,
Kansas City chose to focus on the more recent cases that could lead to an arrest,
rather than reviewing the cases identified in its application.

       Kansas City officials went on to say that it did not distinguish between
unsolved cases from the 1980s and unsolved cases from 2008. Kansas City defines
a cold case as an unsolved case that is two years or older and the detective
originally assigned to the case is no longer working in the unit from which the case
originated. We understand that jurisdictions may define cold cases differently.


                                          7

However, agencies using NIJ funds to advance its cold case efforts must abide by
the definition outlined in the program solicitation.

      We are questioning all personnel costs charged to the cooperative
agreement, because 95 percent of the cases reviewed by the award-funded
employees were not eligible under the program. Further, Kansas City officials
stated that they did not have a formal system to track the number of hours
award-funded employees spent on each case, which would allow us to determine
the percentage of time award-funded employees spent on eligible cases. Therefore,
we are questioning the $436,688 in personnel costs charged to the cooperative
agreement as unallowable.

Other Direct Costs

       The sample also included six travel expenditures totaling $14,707. 3 For five
of these transactions, we determined that the expenditures were adequately
supported, approved, and allowable. The allowable travel expenditures included
travel to a conference covering DNA topics and investigative travel (i.e., travel to
collect a comparison DNA sample from a suspect) related to eligible cases reviewed
as part of this program. The remaining sample expenditure was for investigative
travel totaling $3,554 related to an ineligible case from 2008. As outlined in the
previous section, we found that more recent cases were not eligible to be reviewed
or investigated under this program. As a result, we are questioning the $3,544 in
travel costs related to this case as unallowable.

Budget Management and Control

       The NIJ approved a detailed budget for the cooperative agreement which was
organized by defined budget categories. According to the OJP Financial Guide, the
cooperative agreement recipient must initiate a GAN for a budget modification that
reallocates funds among budget categories, if the proposed cumulative change is
greater than 10 percent of the total award amount. We compared cooperative
agreement expenditures to the approved budget to determine whether Kansas City
transferred funds among direct cost categories in excess of 10 percent. We
determined that Kansas City complied with the requirement, as the cumulative
difference between actual category expenditures and approved budget category
totals was not greater than 10 percent.

Reporting

      We reviewed the Federal Financial Reports (FFR) and Categorical Assistance
Progress Reports (progress reports) to determine if the required reports were
submitted on time and accurate.


        3
          There were additional travel charges totaling $898 that were not included as part of our
sample. While we did not review the supporting documentation for these expenditures, we did
confirm that the costs were allowable under the Solving Cold Cases with DNA program.


                                                  8

Financial Reporting

       The OJP Financial Guide states that grant recipients must report expenditures
online using the FFR no later than 30 days after the end of each calendar quarter.
We reviewed the submission dates for the five most recent FFRs as of the start of
our fieldwork and determined that all five reports were submitted on time.

        We also reviewed financial reporting for accuracy. According to the OJP
Financial Guide, recipients shall report the actual expenditures and unliquidated
obligations incurred for the reporting period on each financial report. We compared
the reports to Kansas City’s accounting records and determined that four of five of
the FFRs were not accurate. The inaccuracies were due to timing differences
between posting and reporting payroll expenditures. In two instances, a pay period
fell at the end of the quarter and the corresponding pay date was at the beginning
of the next quarter. The FFR reported these expenditures in the period of the pay
date rather than the period the expense was incurred, as shown in Exhibit 2.

EXHIBIT 2: FFR ACCURACY BY PERIOD 4
                                                                                         DIFFERENCE
                                              PERIOD         PERIOD EXPENDITURES      BETWEEN REPORTS
  REPORT            REPORT PERIOD        EXPENDITURES IN        IN ACCOUNTING          & ACCOUNTING
   NO.                END DATE          QUARTERLY REPORT           RECORDS                RECORDS
     3                06/30/12               $70,307               $70,307                  $       0
     4                09/30/12                 54,747               62,638                      (7,892)
     5                12/31/12                 80,444               72,552                      7,892
     6                03/31/13                 66,321               78,229                  (11,909)
     7                06/30/13                 53,995               42,086                  11,909
Source: OJP’s GMS and Kansas City’s Financial Records


       This resulted in two FFRs understating the period expenditures and the
subsequent two FFRs overstating the period expenditures by the same amount.
However, the differences were only temporary and the cumulative difference was
zero; as a result, we offer no recommendation related to this issue.

Categorical Assistance Progress Reports

       According to the OJP Financial Guide, progress reports are due semi-annually
on January 30th and July 30th for the life of the award. We reviewed the submission
dates for the four most recent progress reports submitted and determined that all
four reports were submitted on time.

        We also reviewed the progress reports for accuracy. According to the OJP
Financial Guide, the funding recipient agrees to collect data appropriate for
facilitating reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient should ensure
that valid and auditable source documentation is available to support all data

         4
             Throughout this report differences in the total amounts are due to rounding.


                                                       9

collected for each performance measure specified in the program solicitation. We
selected two recent progress reports for our audit review. These reports covered
the reporting periods from January 2012 through June 2012 and July 2012 through
December 2012.

       The NIJ’s Solving Cold Cases with DNA Progress Report Form includes a
performance measure table, which captures six performance metrics for each
reporting period over the course of the cooperative agreement. Performance
metrics include: (1) number of violent crime cold cases reviewed, (2) number of
violent crime cold cases reviewed in which biological evidence still existed,
(3) number of violent crime cold cases with biological evidence that are subjected
to DNA analysis, (4) number of violent crime cold cases that yielded a viable DNA
profile, (5) number of DNA profiles entered into the Federal Bureau of
Investigation’s CODIS, and (6) number of CODIS hits.

       Kansas City officials informed us that investigative staff overseeing cold case
work under the cooperative agreement tracked performance by updating a cold
case database managed by the police department. At the end of each semi-annual
reporting period, the period data was compiled and reported to the NIJ. We
reviewed a copy of the database provided by Kansas City. Based on our review, we
determined that the performance data reported to the NIJ did not match the
supporting documentation maintained by Kansas City, as shown in Exhibit 3.

EXHIBIT 3: PERFORMANCE METRIC ERRORS, CALENDAR YEAR 2012
REPORTING           1.            2.           3.          4.           5.           6.
PERIOD: REPORTED    CASES         W/           SUBJECTED   YIELDED      ENTERED      CODIS HIT
DATA, DATA IN       REVIEWED      BIOLOGICAL   TO DNA      VIABLE DNA   INTO CODIS
SUPPORTING                        EVIDENCE     ANALYSIS    PROFILE
DOCUMENTS, AND
THE DIFFERENCE
Jan–June 12
                        916            754          N/A         N/A          N/A           7
Reported
Supporting
                      1,005            821          N/A         N/A          N/A          N/A
Documents
       Difference       (89)           (67)                                                7
Jul – Dec 12
                      1,158            947          N/A         N/A          N/A          10
Reported
Supporting
                      1,127            920          N/A         N/A          N/A          N/A
Documents
       Difference        31             27                                                10
Source: OJP’s GMS and Site-work


       The differences for both periods were in part due to the fact that the
database included duplicate cases. For the January through June 2012 reporting
period, we identified 28 and 26 cases that appeared in the database more than
once for the first and second metric respectively. For the July through December
2012 reporting period, we identified 25 and 24 cases that appeared in the database
more than once for the first and second metric respectively. In addition, the
differences were likely due to the way information was pulled from the database.



                                               10

In order to determine the case counts during a given period, a detective filtered the
data using a date field. However, we found the data in this field was not uniform,
making the filter tool somewhat difficult to use. This was compounded by the size
of the database, which was quite large. The manual nature of this process
appeared to make it difficult to ensure the count was correct. We also noted that
Kansas City reported the number of CODIS hits, not only for these two periods, but
for every reporting period for this award. According to NIJ’s Guidelines for
Performance Measures and Progress Reports, award recipients should not include
this metric if the award does not include funding for DNA analysis. Therefore, this
metric should have been reported as ‘N/A’ for all reporting periods. 5

       Additionally, we identified another form of duplication, which was the result
of Kansas City’s work with a partnering agency. Kansas City and the Jackson
County Prosecutor’s Office (Jackson County) received separate cooperative
agreements to conduct “dual reviews” of unsolved sex crimes cases. The general
approach was described by both agencies as follows: (1) Kansas City conducted an
investigative review of the case file to make an initial determination regarding
whether the case should be pursued, and (2) the case was then forwarded to
Jackson County a legal and factual review to determine if the case had prosecution
potential.

       We found that both Kansas City and Jackson County were counting cases
reviewed by both agencies as part of their performance metrics. According to NIJ’s
Guidelines for Performance Measures and Progress Reports, cases should only be
counted as reviewed once, even if they are reviewed multiple times under an award
or across multiple awards. This means that in order to avoid double-counting, only
one agency should report a case reviewed as part of its performance metrics,
regardless of the case being reviewed by both agencies. In total, we found that
both agencies reported 485 of the same cases; 41 of which were reported by
Jackson County first. This means that Kansas City should not have reported these
41 cases, as they had already been counted as reviewed.

        Finally, we found that Kansas City’s progress reports overstated the number
of cases reviewed, based on our determination that 95 percent of cases were
ineligible, as outlined in the Expenditure section of this report. As a result of these
issues, the actual number of cases reviewed under the program was significantly
less than what was reported. The total numbers reported for the life of the
cooperative agreement and the actual numbers for each metric are shown in
Exhibit 4.




       5
           NIJ issued the Guidelines for Performance Measures and Progress Reports to award
recipients in December 2012. The guidance was available to award recipients prior to the July through
December 2012 progress report period due date on January 30, 2013. In addition to using the
guidance to complete the performance measure table for that period and all periods moving forward, it
is reasonable to conclude that award recipients could also use the guidance to revise metrics that were
included as part of previous reporting periods, if necessary.


                                                 11

EXHIBIT 4: TOTAL CASES REVIEWED – ACTUAL VERSUS REPORTED

REPORTING             1.          2.           3.          4.           5. ENTERED   6.
PERIOD: REPORTED      CASES       W/           SUBJECTED   YIELDED      INTO CODIS   CODIS HIT
DATA, DATA IN         REVIEWED    BIOLOGICAL   TO DNA      VIABLE DNA
SUPPORTING                        EVIDENCE     ANALYSIS    PROFILE
DOCUMENTS, AND
THE DIFFERENCE

Total Reported          2,456          2,083        N/A         N/A        N/A            30
Actual                     94            87         N/A         N/A        N/A            N/A
         Difference     2,362          1,996                                              30
Source: OJP’s GMS and Site-work

      Based on the information outlined above, we determined that the
performance metrics were not accurate. We recommend that the OJP obtain a final
progress report, which includes the corrected performance data based on eligible
cases under the program.

Program Performance and Accomplishments

       As previously mentioned in this report, the purpose of the program was to
provide assistance to states and units of local government to identify, review, and
investigate UCR Part 1 Violent Crime cold cases that have the potential to be solved
through DNA analysis and to locate and analyze biological evidence associated with
these cases. We reviewed the NIJ cooperative agreement solicitation, Kansas City
documentation, and interviewed Kansas City officials to determine whether the
program goals were implemented. The goals and the degree to which the
cooperative agreement met those goals are detailed below.

       For its first goal, Kansas City proposed to review cold case sex crimes.
Specifically, Kansas City’s award application primarily addressed reviewing cold
cases for crimes committed between 1972 and 2005 that were known to have
evidence. As previously mentioned, we found that 95 percent of the cases reviewed
under the program were not eligible. We were not able to determine the amount of
time spent on the ineligible cases as compared to eligible cases. However, in our
opinion, the fact that 95 percent of the cases reviewed were ineligible likely
represents that a significant portion of Kansas City’s efforts and resources were not
related to the goals and objectives of the program.

       Kansas City’s second and third goals were to investigate DNA CODIS hits that
were the result of past reviewed cold cases and to clear CODIS hits. The allowable
travel costs provide some evidence that investigators were working to achieve both
of these goals. Once suspects were identified, investigators would identify the
location of the suspect and travel to that location to attempt to obtain a DNA
confirmation sample using a buccal swab, in order to move forward with
prosecution. The progress report narratives included eligible cases that were
cleared under this award. While we did not verify the accuracy of the information
reported, the description of the work performed appeared to align with the third
goal. Again, it was not possible for us to determine the amount of time spent on



                                               12

the eligible cases versus ineligible cases, meaning we cannot make an assessment
regarding what portion of efforts and resources the eligible cases represent.

        Based on the information outlined above, we determined that the goals of
the program were severely limited by Kansas City’s review of ineligible cases.
Therefore, in our judgment Kansas City failed to achieve the program goals and
significantly overstated its program accomplishments. Because the cooperative
agreement has ended, we are not making a recommendation related to this issue.
However, the questioned costs related to Kansas City’s review of ineligible cases
are addressed in the Expenditures section of this report.

Post End Date Activity

       According to the OJP Financial Guide, award recipients have 90 days after the
end date of the award to close out the award. Award recipients must also provide a
cash reconciliation, make the final drawdown, and submit all required final reporting
to the granting agency. The cooperative agreement reached the project end date
on June 30, 2013, meaning Kansas City had until September 28, 2013 to close out
the award. We did not find any exceptions while verifying post end date activities.

Conclusion

       The purpose of this audit was to determine whether reimbursements claimed
for costs under the cooperative agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and conditions of
the cooperative agreement, and to determine whether the program goals and
objectives were implemented. We examined Kansas City’s accounting records,
budget documents, financial and progress reports, and operating policies and
procedures. We found:


      •	 $440,232 in unallowable costs associated with the review of ineligible cases;

      •	 Kansas City’s FFRs were not accurate;

      •	 performance metrics reported to NIJ did not match the supporting 

         documentation and were not accurate; and


      •	 Kansas City did not meet its program goals.

Recommendations

We recommend that OJP:

1.	      Remedy the $440,232 in unallowable questioned costs associated with the
         review of ineligible cases.




                                           13

2.   Obtain a final progress report that includes the corrected performance
     metrics based on eligible cases under the program.




                                       14

                                                                     APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements claimed
for costs under the cooperative agreement were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and conditions
of the cooperative agreement, and to determine program performance and
accomplishments. The objective of our audit was to assess risks and review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) expenditures, (4) budget management and control,
(5) financial and progress reports, (6) program performance and accomplishments,
and (7) post end date activity. We determined that monitoring of contractors and
subrecipients, property management, indirect costs, program income, and matching
were not applicable to this award.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This was an audit of NIJ
Cooperative Agreement 2011-DN-BX-K526 awarded to the Kansas City, Missouri
Board of Police Commissioners (Kansas City). Our audit concentrated on, but
was not limited to September 12, 2011, the award date for Cooperative
Agreement 2011-DN-BX-K526, through August 13, 2013. Kansas City had
drawn down a total of $452,293, the entire award, as of July 12, 2013.

        We tested compliance with what we consider to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide and the award
documents.

        In conducting our audit, we performed sample testing in three areas, which
were cooperative agreement expenditures (including personnel expenditures),
Federal Financial Reports, and Categorical Assistance Progress Reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure to
numerous facets of the award reviewed, such as dollar amounts, expenditure
category, or risk. However, this non-statistical sample design does not allow a
projection of the test results for all cooperative agreement expenditures or metrics.

      In addition, we evaluated internal control procedures, drawdowns, budget
management and controls, and program performance and accomplishments.
However, we did not test the reliability of the financial management system as a
whole. We analyzed computer based data provided by Kansas City to identify the
number of cases reviewed using award funds and the number of ineligible cases


                                         15

reviewed. We also reviewed the computer based data for duplicates and errors,
and made appropriate adjustments based on our review.




                                       16

                                                                                APPENDIX II

                SCHEDULE OF DOLLAR-RELATED FINDINGS

                            6
QUESTIONED COSTS                                               AMOUNT               PAGE

Personnel and Fringe Benefits:

Unallowable Costs – Ineligible Cases                           $436,688               5-8

Other Direct Costs:

Unallowable Costs – Ineligible Cases                              $3,544                8

TOTAL QUESTIONED COSTS                                        $440,232

TOTAL DOLLAR-RELATED FINDINGS                                 $440,232




       6
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.


                                                17

                                                                                             APPENDIX III

           KANSAS CITY, MISSOURI BOARD OF
           POLICE COMMISSIONERS RESPONSE




                                                                                       Chief. Offlc.


Police
                                                                                         1125 l ocu.!
                                                                         Kann. City. MI,aoul164106
                                                                                       lOrWW.kcpd .Ofg

                    KC/MO
Darryl Fort6                                                                   0tfIee (818) 234--5010
 ClIiorIo/Pob                                                                    FIX (816) 234-5013

                                               February 10, 2014


U.S. Department of Justice
Offlce of thfl lnspector Gener.1
Mr. DlVld M Sheeren
Re,lona l Audit Man'8er
DeMer Reglon, l Audit Office
1120 Ul'lC(lln, Suite 1500
Denver, CO 80203

Re: Gl'IIllt Awa rd Number 201 1-0N-8X-KS26

Mr. Sheer,n:

Th is letter will clarify Issues rtlardlng the referenced .ward to the Ka nus City, Missouri Police
Department (KCPO). !(cPD Is In receipt of • Dro/f Audit Report from the Oftlce of Justice PrOirams,
N.tlol'l8l Institute of Justice, and believes the Information Included below, attached schedules, . nd
reformatted/reors.n1    zed Sex Crimes Unit - Labor. tory - Prosecutors (5CULP) d.tabue will .ddress
concerns found durlnl the ludlt.

PI,e 14 of the Ora/I Audit Report reflects the Conclu$lon .nd Recommendations, KCPD under$tfndS lhoe
buls for Ihe Contluslon .nd Recommendallons . nd offers Ihe followln8 explan.tlons:

ReQ)mmendlllons

We recommend th.t OJP:
   1. Remedy the $440,231 In unallow.bl, questioned eosb 'Sloclated with the re"lew of Inell.lble
        (1511.

    KCPD Response:

            KCPO'S primary focus for the SoMng Cold Coses with DNA 8r,nt w,s to use fund ln8 to
            ~compll $h   8011 1 from pilge 1 of Ihe Sollcltorlon which WIS "to identify, re"lew, ilnd
            prlorlUze "Iolent crime cold cues t hat have the potential to be solved uslns DNA .nalysls
            (by appropriate perso ns such 1$ prosecutors, public defenders, law enforcement personnel,
            forensic scientists, and medlc.1 e-amlners) In order to determine whe ther DNA .na!vsis of
            Iny u15Ung bloioalc.1ev!dence could help solve the crime,"

            In order to meet thl$ BO.I, KCPO determined there were 3,995 ClseS (1,448 for 2005 and
            urller, .nd 2,547 for 2006 and forw.rd) t h' t " h.d evidence" u stated In our srant
            App lication (Pages 8-9). The evidence recovered from Ihese cases could have be longed to
            other Jurisdictions with which KCPD has mutu al aid agreements and maintains the evidence




                                                  18

for custodial purposes for these jurisdictIons. This evidence was stored In either the
evidence storage cabinets and/or freezers at the Crime Lab or on shelves at the Property
Room. Whether or not every case may have contained biological evidence, eSj)Klally those
al the Property Room, was not known with certitude; but the list was developed by querying
KCPD's database for cases where the offense met the criterIa for the Application. Therefore,
KCPD believed the numbers presented in its Application represented cases containing
biological evidence. As slated on page 3 of the Application, KCPD used to have
~approximately S,SOO cold sex crime cases where biological evlden<:e potentially existed for
the years 1972-1992," btlt had reduced thIs number to approllimateiy 1,448 through an
earlier grant. "KCPD believes potential bio1ogiu1 evidence that can be tested for DNA will
be found _. but Is unable to predict how many that may be," only that It potentially existed
based upon information In the SCUlP database for all cases.

Attachment A provides a summary of the data now available through SCULP after it has
been reformatted and reorganized. Of the cases for the period 2005 and older shown on
the revised SCULP data, 91" were reviewed. KCPD feels this shows KCPD complied with the
Application InvoMng cases for 2005 and older since 91" of these were reviewed, whiCh
allowed time for KCPD to move on to cases for 2006 and forward. KCPD in the grant
application (Page 15) indicated detectives ~could start reviewing the year 2006 and forward'"
if detectives were able to review the older cases faster.

As discussed in KCPD's gfilnt Application (Page 12), KCPD's approach to the Solicitation
envisioned coordinating detective and prosecutor analysis to prioritize cases and to ~test
evidence uSing instrumentation that did not exist When evidence in the cold cases were
originally aO<llyn'd.- Qlse~ w1th potential DNA evidence CQ uld beoome CQld/irlltttive due to
the technology !CCPD could afford to employ when the case aa:urred, or from bottlenert5
resulting from the sheer number of cases which would require prioritization using other
factors such as whetherwitnesses/victims are accessible.

In terms of technological changes and KCPO's ability to afford to deploy them, there have
been three main areas of advancement that can playa role In the assessments of an older
case. The bulk of the advancements were validated in 2009 and thus did no t come fully
online until 2010, which meant many older cases could now be reviewed to see if potential
DNA evidence existed as oullined In KCPD's Applico/Ion. The new technological areas are
the quantitation of the DNA, the ampljflcation It used, and the loci available for testing:

A. KCPD's Crime lab va lidated a new quantitatlon system tl'lat was more sensitive and
   a(Cufille as well as incorporated the ability to specifically quantitate male DNA.
B. The CrIme Lab validated a new amplifICation kit that was more sensitive allowlns the
   required amount of input DNA to be lowered by a half. This has a large impact on the
   samples that can be tested. Samples that previously did not have sufficient DNA. may
   now be amendable for tesllns.
C. The Crime lab also validated Y-STR testing which targets DNA from the y chromosome
   (o r male DNA). This is particularly useful in sexual assault cases with female viCtims and
   male assailants. Y-STR testing requires less Input DNA and Is more sensitive, allowing the
   Crime lab to target samples/cases with previously insuffICient amounts of DNA from
   probative samples.




                                   19

            It is not uncommon for victims of sexual assault to be undecided/unable/unavailable and
            then change their minds years later. Even though DNA evidence In the form of rape kits
            may have originally been available, the vktims' reluctance/ability to cooperate oftentimes
            resulted in their ases beine se t aside in order to move forward with other more
            solvable/prose<:utable cases. One of the undertakings of KCPD's grant Application was to
            revisit these cases since they have become cold in nature.

    2.   Obtain a fi nal proc;reS$ report that Includes the torT«t1Hl performance metrics based on
         ellci ble cases under the proc;rllIm.

    KCPO Response:

            KCPO understands the basis of this conclusion Insed on the SCULP data provided.
            Modifia tions to the SCUlP data, discussions with detectives worldng the grant, and
            corrupondence with OIP (Attachment B) lead KCPO to believe the final progress report is
            correct with the exception of the number of COOtS hits Indicated on the report.

KCPO offers the above information and attached documenu to support its work dol'll! pursuant to the
SOlving Cold COst'S with DNA grant. KCPO Is of the belief it !'las complied with the program requiremenU
outlined in the Solicitation and is ready to discuss this in more detail.




                                                                        Commander
                                                                        Fiscal Division




Attachment A -SCULP Data Summary
Attachment 8 - Progress Report Correspondence with OJP
Attachment C- Missouri State Statute of Umitation
Attachment 0 - Review and Investigative Process Guidelines
Attachment E - Revised SOJlP Database




                                              20

                                                                                          APPENDIX IV

     OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                   U.S. Depa r tment of JusUce

                                                   Office ofJustice Programs

                                                  OfJice of Audit, Assessment, and Management


                                                  14'............ D.C lOS]1
     fEB -\ 1014


MEMORANDUM TO:                David M. Sheeren
                              Regional Audit Manager
                              Denver Regional Audit Office
                              Offi ce of the Inspector Genera l


FROM:                        ~~J~
                              Actin g Director

SUBJECT:                      Response to the Draft Audit Report, Audit oflhe Office ofJustice
                              Programs, Nalioll(lllnSlilllle ofJustice. Salving Cold Cases wilh
                              DNA Cooperative Agreemenl Awarded /0 Ihe Kansas City,
                              MiSSOllri Board of Po/ice Commissioners

This memorandwn is in reference to your correspondence, dated January 7,2014, transmitting
the above-referenced draft audit report for the Kansas City, Missouri Board of Police
Commissioners (Kansas City). We consider the subject repon resolved and request written
acceptance of this action from your office.

The draft report contains two recommendations and S440,232 in questioned costs. The
following is the Office of Justice I'rograms ' (OlP) analysis of the draft audit report
recommendations. For case of review, the recommendations are restated in bold and arc
followed by our response.

I.     We reco mmend that OJP renl edy the $440,232 in un allowa ble qu estioned costs
       associated with the review of ineligible cases.

       OJP agrees wi th the reco mmendation. We will coordinate with Kansas City to
       remedy the $440,232 in unallowable costs associated with the review of ineligible cases.

2.      We r ocommend that OJ P obta in III fi nal p rogress report th Mt includctl che corrected
        performa nce met rics based on eligi ble cues und er th e prog ra m.

       OJ ]l agrees with the recommendati on. We w ill coordinate with Kansas City to obtai n a
       final progress repon , which refl ects corrected pcrformWlce metric, based on eligible
       cases under the Sol ving Cold Cases with DNA Program.




                                                 21

We appreciate the opportunity to review and comment on Ihe draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley. Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director. Audit and Review Division
       Office of Audit, Assessment, and Management

       Gregory Ridgeway
       Acting Director
       National Institute of Justice

       Ponia Graham
       Office Director, Office of Opera lions
       National Institute of Justice

       Charlene Hunter
       Program Analyst
       National Institute of JUSlicc

       Charles Heurich
       Physical Scientist
       National Institute of Justice

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP E.xecutive Secretariat
       Control Number 11'20140108144521




                                                  2




                                                22

                                                                     APPENDIX V

     OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

   SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this audit report
to the Kansas City, Missouri Board of Police Commissioners (Kansas City) and the
Office of Justice Programs (OJP). Kansas City’s response is included as Appendix III
and OJP’s response is included as Appendix IV of this final report. The following
provides the OIG analysis of the responses and a summary of actions necessary to
close the report.

Recommendation:

   1.	 Remedy the $440,232 in unallowable questioned costs associated
       with the review of ineligible cases.

      Resolved. OJP agreed with our recommendation to remedy the $440,232 in
      unallowable questioned costs associated with the review of ineligible cases.
      In its response, OJP stated that it will coordinate with Kansas City to remedy
      the questioned costs.

      In its response, Kansas City provided additional information and
      documentation that it believes supports that it is in compliance with the
      program requirements outlined in the solicitation. We reviewed this
      information but still do not agree that Kansas City has demonstrated
      compliance with the program requirements. Kansas City’s response
      summarizes the work it proposed to complete in its award application. In its
      response, Kansas City stated that of the 3,995 cases identified with biological
      evidence in its FY 2011 award application, 2,547 were cases from 2006 and
      forward. However, the FY 2011 application identifies all 3,995 cases as being
      from the 1972 through 2005 timeframe, as stated on page 7 of this report.

      Kansas City also provided a modified version of the database we used to
      determine that 95 percent of the cases reviewed by Kansas City were not
      eligible under this program and that there were over 1,000 cases from the
      1972 through 2005 timeframe cited in its application that had yet to be
      reviewed. According to Kansas City, the revised database shows that it
      addressed 91 percent of the cases from 2005 and prior, in order to
      demonstrate that it was permissible for it to begin reviewing cases from 2006
      forward. As stated on page 7 of this report, Kansas City’s FY 2011
      application states that if it completed its review of the 1,448 cold cases for
      crimes committed between 1972 through 2005, it might begin to review
      cases from 2006 and forward.

      Our concern with Kansas City’s assertion in its response that the modified
      database demonstrates that it actually addressed 91 percent of the cases it


                                         23

planned to review from 1972 through 2005 is twofold. First, Kansas City’s
calculation for the percentage of cases reviewed from 2005 and prior was
based on its removal of 874 cases from the original database provided to us.
These were cases that Kansas City planned to review according to its
application and it never notified NIJ of any changes in scope. Second, our
concerns related to the eligibility of cases from 2006 and forward, as outlined
in the Personnel and Fringe Benefits section of this report, are not addressed
by Kansas City’s modification of the database.

In addition, in its response, Kansas City stated that cases with biological
evidence could become cold for two reasons: (1) due to the technology it
could afford to employ or (2) “bottlenecks resulting from the sheer number of
cases which would require prioritization using other factors such as whether
witnesses/victims are accessible.” As stated on page 5 of this report,
program funds are not to be used for general casework backlog reduction.
Kansas City’s ability to fund DNA analysis and capacity to process a high
volume of cases are both backlog issues.

Kansas City also outlines three advancements in DNA technology that its
crime lab employed in 2009 and 2010. This included a more sensitive
quantification system, an amplification kit that lowered the required DNA
sample size, and the validation of Y-STR testing. Kansas City stated that the
implementation of this technology could be applied to older cases,
particularly for samples that previously did not have sufficient DNA.
Employing this technology would have been an allowable use of funds, if
Kansas City had demonstrated that the more recent cases reviewed as part
of this program benefited from new technology because the technology
available at the time the crime was committed was not sufficient to analyze
the DNA. However, as stated in Kansas City’s response, the decision not to
pursue the biological evidence from the ineligible cases was not due to a lack
of technology, but rather due to costs of the technology, a backlog related to
the volume of cases, and the accessibility of victims and witnesses. We also
did not see any indications in the case files we reviewed that Kansas City
believed the cases would have benefitted from the technological
advancements noted in its response.

Kansas City also stated that it is not uncommon for victims of sexual assault
to be unwilling or unable to cooperate with an investigation and their
willingness or ability to cooperate can change over time. This initial lack of
cooperation can result in the case being set aside. Kansas City stated that
readdressing these types of cases was one of its program goals laid out in
the award application. While we understand that this is a justifiable reason
for a case to be inactivated, as noted in this report, this program is not
intended to be used for costs for investigations that do not have the potential
to be solved through DNA analysis, such as those with victims unwilling or
unable to cooperate. Again, our concerns regarding the eligibility of more
recent cases reviewed as part of this program remain.




                                   24

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $440,232 in unallowable
  questioned costs.

2. Obtain a final progress report that includes the corrected
  performance metrics based on eligible cases under the program.

  Resolved. OJP agreed with our recommendation to obtain a final
  progress report that includes the corrected performance metrics based
  on eligible cases under the program. In its response, OJP stated that
  it will coordinate with Kansas City to obtain a final progress report.

  In its response, Kansas City stated that it understood the basis of our
  conclusion; however, it believed the modifications to its database
  discussed previously, feedback provided by detectives paid using
  award funds, and correspondence with OJP summarized in an
  attachment to its response adequately address most of this finding.
  Specifically, Kansas City stated that based on the additional
  information provided, it believed the performance metrics included in
  the final progress report that we reviewed as part of the audit are
  correct, with the exception of reporting the number of CODIS hits.

  We agree the CODIS hits metric reported by Kansas City still needs to
  be updated. We do not agree that the remaining metrics are correct.
  As discussed previously, the modifications made to Kansas City’s
  database, in conjunction with any information provided by detectives
  funded by this program, do not address our concerns regarding the
  eligibility of the cases reviewed as part of this program. Also, while
  the updates to the database may address duplication within the
  database, it does not address duplication between Kansas City and its
  partnering agency, the Jackson County Prosecutor’s Office, as outlined
  on page 11 of this report. It appears Kansas City provided us with its
  correspondence with OJP regarding its progress reports as evidence
  that NIJ accepted the figures reported in the final progress report.
  However, when NIJ accepts a progress report, it is not affirming that it
  agrees with the information in the report or attesting to its accuracy.
  Rather, NIJ’s acceptance only signifies that it received a complete
  report.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP obtained a final progress report that includes the
  corrected performance metrics based on eligible cases.




                                     25

